                                                                                  I
                                                    C l o s e o u t Computers
                          NATIONAL SCIENCE FOUNDATION            ( Page 1 of 2
                              4201 WILSON BOULEVARD
                             ARLINGTON, VIRGINIA 22230                                '1
                                                                                  I




     OFFICE OF
 INSPECTORGENERAL



MEMORANDUM

Date:         August 27, 1998



              -4
To:           File No. I97 110059

From:                                     -
                              I S ~ e c i aAeent.
                                           l      lnvestieations ~ e 4 t i o n




                          -
                              n v - e s r t y t u d e n t Tra
                                                         -        --         I(
                                s ~ ~ e n t - i n - c h a r gInvestigations
                                                              e,            Section

Re:           Case ~ l o s e o u ~ ~ i r e c t o rcomputers
                                                   a t e


On November 24, 1997 our office received information that government
com uter equipment and software had been stolen from the ~ i r e c t o r a t e
P a t NSF. The complainant had been told by -emplofee          that N S F staff
had been approached by                    (former NSP emplo$ee) and
,       a computer assistant, and asked if they wanted to purchase stolen
NSF equipment. The complainant suspected            of steal& this
                                                            I
equipment.

Over the past 2 years, over $15,000 worth of computer equiphent and software
has been-stolen f r o m We initiated a review to find i f t - ~




                                    -
or possibly other NSF employees had been stealing the govern'ment equipment.
                                                                        't

We interviewed a n NSF employee who suggested t       h    a
                                                                       1
                                                               t who is a VISA
cardholder for his division, might be taking some of tAis equip!ment and
supplies that he is supposed to purchase for his office. This eknployee said that
s         supervisor does not administer proper oversight for
purchases, and virtually gives him carte blanche with the Visa card.   1; Visa


During our investigation, we learned that almost everyone in the division had
                                                               I
access to the keys to the storage room where some computer equipment was
stolen. Although we were told that          routinely is in thd' NSF building
after normal working hours, a review of access card fi,ies shoded no evidence of
                                                                       1
                                                                I
                                                     ~loseout~~om~uters
                                                           '1 Page 2 of 2


s-'
   when certain equipment was stolen.                           I
            card being used over the weekend or at night during the time period
                                                               11
                                                                    1
                                                                    I
We found no way to identifjr exactly what was purchased and therefore could
                                                                 I1
not verify the location of specific equipment. A review bf Visa cardholder
procurement files did not reveal any evidence of inappropriate Aonduct. We
found that almost half of the reviewed files were unorganized ahd incomplete.
We also found that there is no set standard on how Visa files a!-e maintained.
Of the 8 files we reviewed, we found s          to be the most dborganized and
most difficult to track expenditures. We recommended to
Head of Procurement Section (DAS), that she consider defininglmore clear
procedures for recording, receiving approval for, and tracking the purchase of
                                                                  I
computers and similar equipment.
                                                                    I


Other than the suspicion and rumors of various NSF employees, we found no
                                        or .          heref fore,
                                                        -   .

direct evidence of wrongdoing by                                  this case is
                                                             'I
closed, pending additional information.
